HHS/OIG-Audit--"Review of University Recharge Centers at Washington University, (A-07-95-00908)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of University Recharge Centers at Washington University,"
(A-07-95-00908)
September 25, 1995
Complete Text of Report is available in PDF format
(1.3 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of the University Recharge
Centers at Washington University, St. Louis, Missouri (University). For the
recharge centers reviewed, we found the university did not (i) develop billing
rates based on actual costs of providing services and (ii) utilize surplus and
deficit fund balances in the calculation of subsequent billing rates. Also,
surpluses and deficits were included in the indirect costs pools used to calculate
the indirect costs. We are recommending that the University develop and implement
certain procedures and controls over the operation of recharge centers